  Additional Copies

  To obtain additional copies of this report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits or reviews, contact the Audit
  Followup and Technical Support Directorate at (703) 604-8940 (DSN 664-8940)
  or fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCAA                  Defense Contract Audit Agency
GAS                   Government Auditing Standards
IITRI                 Illinois Institute of Technology Research Institute
JSC                   Joint Spectrum Center Support Group
OMB                   Office of Management and Budget
coordinated, and documented. The DCAA failed to ensure coverage for all of the
Federal expenditures in the OMB Circular A-133 audit (finding A) and did not
adequately document the review on internal control over compliance, compliance with
major program requirements, and the Schedule of Expenditures of Federal Awards
(finding B). Through extensive oral explanations and written narratives, DCAA
demonstrated that it generally complied with OMB Circular A-133 in performing the
review of internal control and the audit of compliance requirements. IITRI complied
with OMB Circular A-133 reporting requirements, with the exception that the Schedule
of Expenditures of Federal Awards did not include notes that described the significant
accounting policies used to prepare the schedule. In addition, the Data Collection form
did not list the individual programs within the Research and Development Cluster in the
same level of detail presented in the Schedule of Expenditures of Federal Awards
(finding C).

Finding A. Audit Planning and Coordination. DCAA Chicago Branch Office did
not adequately plan and coordinate an OMB Circular A-133 audit for all of the IITRI
Federal expenditures. As a result, about 46 percent ($44.5 million) of Federal
expenditures ($97.1 million) under the audit cognizance of other DCAA offices was not
adequately reviewed.

OMB Circular A-133.§ .500(a) states that “the audit shall cover the entire operations
of the auditee.” IITRI reported Federal expenditures of $97.1 million for FY 1997.
However, contracts for $38.1 million for the Joint Spectrum Center Support Group
(JSC) in Annapolis, Maryland, and classified contracts valued at $6.4 million for a total
of $44.5 million or 46 percent of the $97.1 million were under the audit cognizance of
other DCAA offices. The DCAA Chicago Branch Office did not coordinate or request
audit assistance for an OMB Circular A-133 audit of the JSC operations. However, the
DCAA Columbia Branch Office, Columbia, Maryland, in the normal course of
operations, performed an audit at the JSC. Although the audit report states that the
audit was conducted in accordance with OMB Circular A-133, the JSC audit was not
planned and performed according to OMB Circular A-133 requirements. The JSC
auditors informed us that they reviewed one compliance requirement (Allowable
Cost/Cost Principles). The other 13 compliance requirements were not reviewed.
Determination of all applicable compliance requirements is an essential step in planning
and performing an OMB Circular A-133 audit.

Although the DCAA Chicago Branch Office arranged for audit coverage of classified
contracts, the DCAA Field Detachment audit report did not indicate that audit coverage
was accomplished according to the requirements of OMB Circular A-133. Unless the
audit of the entire operation was conducted according to the OMB Circular A-133
requirements, the auditor cannot render an opinion on compliance with major program
requirements. To ensure the audit is performed on the entire operations of the auditee,

                                            2
the DCAA Chicago Branch Office needs to plan and coordinate the OMB Circular
A-133 audit with Columbia Branch Office and Field Detachment auditors.

Recommendation A. We recommend that the Branch Manager, Chicago Branch
Office, Defense Contract Audit Agency plan and coordinate all future Office of
Management and Budget Circular A-133 audits to cover the entire operations of Illinois
Institute of Technology Research Institute.

Management Comments. Management concurred with the recommendation. The
Branch Manager, Chicago Branch Office stated that they improved the overall planning
and coordination process beginning with the FY 1999 audit. The improvements are
intended to ensure adequate coverage of the IITRI operations. Assist audit requests will
provide the information needed for the assisting office to plan their audit to meet OMB
Circular A-133 requirements.

Finding B. DCAA Report on Internal Control Over Compliance, Opinion on
Compliance With Major Program Requirements, and the Schedule of
Expenditures of Federal Awards. The DCAA working papers did not adequately
document the review and audit conclusions for internal control over compliance,
compliance with major program requirements, and the Schedule of Expenditures of
Federal Awards. In addition, minimal evidence of supervisory involvement in the audit
was present. Although the DCAA auditors met the training requirement for the
Government Auditing Standards (GAS), DCAA should consider providing OMB
Circular A-133 training to ensure that internal control and compliance testing are
performed correctly.

       Working Papers. The DCAA audit of internal control and compliance was
based on a determination that 10 of the 14 compliance requirements were applicable to
IITRI. However, the audit working papers for 8 of the 10 compliance requirements
were not adequate to support the audit conclusions for the Report on Internal Control
Over Compliance, the opinion on Compliance With Major Program Requirements, and
the Schedule of Expenditures of Federal Awards. DCAA adequately tested and
documented internal control over compliance and compliance with two compliance
requirements—Activities Allowed or Unallowed and Allowable Costs/Cost Principles.
However, we were unable to identify from the working papers how DCAA tested for
key internal controls and compliance objectives for the remaining eight compliance
requirements. OMB Circular A-133 requires auditors to obtain an understanding of the
non-Federal entity’s internal control over Federal program requirements sufficient to
plan the audit. The working papers consisted mainly of audit programs with yes or no
answers, copies of contracts, contract modifications, contractor records, independent
public accountant working papers, and printed account information, but no explanation
of how the documents answered the audit program steps. Although the audit program
steps were drawn from the compliance supplement, we could not ascertain what was
                                           3
done and how it related to the compliance supplement objectives. The working papers
did not contain the methodology, the description of transactions, or the records tested
that would enable an experienced auditor to understand what was accomplished. In a
number of instances, DCAA included the independent public accountant’s work but no
discussion of how or what they did to rely on someone else’s work was present.

GAS, Chapter 6.46 requires that auditors obtain sufficient, competent, and relevant
evidence to use as a basis for the findings and conclusions. A record of an auditor’s
work should be retained in the form of working papers and should contain sufficient
information that will enable an experienced auditor who has no previous connection
with the audit to ascertain from the papers evidence that supports an auditor’s
significant conclusions and judgments. Working papers should document the
objectives, scope, and methodology and include any sampling criteria that was used.
For 8 of 10 compliance requirements (Equipment and Real Property; Matching, Level
of Effort, and Earmarking; Period of Availability; Procurement and Suspension and
Debarment; Program Income; Reporting; Subrecipient Monitoring; and Special Test
and Provisions), we were unable to determine how the working papers supported the
audit conclusions.

For the Schedule of Expenditures of Federal Awards, the audit working papers did not
show how DCAA concluded that the auditee identification of Federal programs was
complete and appropriate. The working papers consisted of contractor records without
any explanation. Without adequate working papers, we were unable to understand how
the conclusions were reached.

DCAA provided extensive supplemental oral explanations and written narratives that
described the audit procedures used and the significance of the supporting evidence in
the working papers. The additional explanations and narratives were necessary for us
to determine that the audit was performed according to OMB Circular A-133
requirements.

        Supervision. The working papers contained minimal evidence of supervisory
review. GAS, Chapter 6 states that the audit staff shall be properly supervised.
Elements of supervision include instructing staff members, keeping informed of
significant problems encountered, reviewing the work performed, and providing
effective on-the-job training. The working papers consisted mostly of printed account
information with highlighted numbers. Most of the working papers were neither
signed, dated, nor reviewed and did not have any explanation of purpose, scope, or
conclusions. Supervisory involvement should have ensured that the audit was
adequately documented in accordance with GAS and performed in compliance with the
OMB Circular A-133 requirements.



                                           4
        Training. To confirm compliance with GAS standards on professional
qualifications, we reviewed the training records of DCAA Chicago Branch Office
auditors who participated in the FY 1997 single audit of IITRI. DCAA was in
compliance with the GAS training requirements. However, only one of the auditors
had received recent OMB Circular A-133 training. The working papers, significant
additional oral explanations, and written narratives demonstrated that auditors did not
clearly understand some of the concepts and requirements of the OMB Circular A-133
audit. For example, the auditor incorrectly assessed IITRI as a low-risk auditee
because the auditor failed to recognize that 3 years of late OMB Circular A-133 audits
result in a high-risk auditee designation. OMB Circular A-133 audits are due no later
than 9 months after the end of the recipient’s fiscal year. At the start of the FY 1997
audit of Federal programs, IITRI audits for FY 1996, FY 1997, and FY 1998 were
overdue. In another instance, the auditor failed to recognize that the requirement to
monitor subrecipients does not depend on the amount of Federal awards given. As a
result, the auditor incorrectly determined that IITRI did not have subrecipient
monitoring responsibilities for two universities based on the level of Federal awards
passed through by IITRI.

Recommendation B.1. We recommend that the Branch Manager, Chicago Branch
Office, DCAA ensure that the working papers adequately document the objectives,
scope, methodology, sampling criteria, and audit conclusions to comply with
Government Auditing Standards for future OMB Circular A-133 audits.

Management Comments. Management concurred with our recommendation. The
Branch Manager, Chicago Branch Office stated that they will adequately document the
audit objective, scope, conclusion, and sampling methodology to comply with GAS for
future audits at IITRI.

Recommendation B.2. We recommend that the Branch Manager, Chicago Branch
Office, DCAA ensure that adequate supervision is provided to auditors who perform
the OMB Circular A-133 audit.

Management Comments. Management concurred with our recommendation. The
Branch Manager, Chicago Branch Office stated that the supervisor was involved in the
FY 1997 audit but that the supervisory documentation did not meet internal expectations
and can be improved. Open and future assignments will include improved supervisory
documentation.

Recommendation B.3. We recommend that the Branch Manager, Chicago Branch
Office, DCAA provide training on the requirements of the OMB Circular A-133 audit
to the audit staff who participate in the IITRI audit.



                                           5
Management Comments. Management concurs with our recommendations. The
Branch Manager, Chicago Branch Office stated that OMB Circular A-133 training was
provided to audit staff in December 2001 and additional training is scheduled for
May 2002.

Finding C. OMB Circular A-133 Reporting Package and Data Collection Form
Requirements. IITRI did not include all required information in the Schedule of
Expenditures of Federal Awards and the Data Collection Form that were submitted to
the Federal Audit Clearinghouse. The Schedule of Expenditures of Federal Awards did
not include notes that describe the significant accounting policies used to prepare the
Schedule as OMB Circular A-133, section .310(b)(4) requires. In addition, the Data
Collection Form did not list the individual programs within the Research and
Development Cluster in the same level of detail as presented in the Schedule of
Expenditures of Federal Awards as OMB Circular A-133, section .320(b)(2)(x)
requires.

Recommendation C. We recommend that the Assistant Vice President for
Government Accounting, Illinois Institute of Technology Research Institute for future
OMB Circular A-133 audit reports, include the appropriate notes to the Schedule of
Federal Awards and provide the required level of detail for the program information
provided in the Data Collection Form.

Management Comments. Management concurred with our recommendation. IITRI
management stated that omission of the note in the FY 1997 report was an oversight
and that all of the future OMB Circular A-133 submissions will include the notes that
are required for the Schedule of Expenditures of Federal Awards. Management also
stated that in the future the Data Collection Form will be presented in the same detail as
the Schedule of Expenditures of Federal Awards.

Other Matters of Interest
For Official Use Only Report Markings. The IITRI report submission included pages
marked For Official Use Only on the pages of DCAA Audit Report
No. 3141-99I10250001. Because the report is a public document, DCAA should
remove For Official Use Only markings from reports that are used for OMB Circular
A-133 report submissions if appropriate, or the For Official Use Only information
should be redacted from the reports.

Late OMB Circular A-133 Audit Reports. IITRI has not submitted single audit
reports to the Federal Audit Clearinghouse within OMB Circular A-133 required time
frames. Reports should be filed no later than 9 months after the end of the fiscal year.
In April 2001, after 16 months of discussion with IITRI Assistant Vice President for
Government Accounting, we participated in a teleconference with IITRI Senior Vice
                                            6
Appendix A. Quality Control Review Process

Scope and Methodology
We conducted a quality control review of the KPMG, LLP and DCAA audit of IITRI
for the fiscal year that ended September 30, 1997, and the reporting submission to the
Single Audit Clearinghouse on January 11, 2001 (Project No. D2001-OA-0107). We
performed our review using the 1999 edition of the “Uniform Quality Control Guide
for the OMB Circular A-133 Audits” (the Guide). The Guide applies to single audits
subject to the requirements of OMB Circular A-133, revised June 24, 1997. The Guide
is the President’s Council on Integrity and Efficiency approved checklist used for
performing the quality control reviews. Our review was conducted from May 2001
through March 2002 and covered areas that related to the financial statements and the
one major program, the Research and Development Cluster. As the cognizant audit
agency for the IITRI, we focused our review on the following qualitative aspects of the
single audit:

       •   qualification of auditors

       •   independence

       •   due professional care

       •   quality control

       •   planning and supervision

       •   internal control and compliance testing

       •   Schedule of Expenditures of Federal Awards

       •   Schedule of Findings and Questioned Costs

       •   Data Collection Form

In conducting the review, we reviewed the working papers that KPMG LLP and DCAA
auditors prepared and discussed the audit with the auditors and IITRI responsible
personnel. In addition, we obtained significant oral explanations and reviewed
additional written narratives that DCAA provided.




                                           8
Prior Quality Control Reviews
Since June 1997, we have issued 12 quality control reviews of DCAA single audits and
4 quality control reviews of KPMG, LLP single audits. We have also issued six quality
control reviews of audits that were performed jointly by DCAA and KPMG, LLP.
Copies of the reports are available on the Office of the Inspector General, DoD, Web
pages (www.dodig.osd.mil).

Single Audit Requirements
The OMB Circular A-133 establishes policies to guide implementation of the Single
Audit Act of 1996 (Public Law 98-502) amendments and provides an administrative
foundation for uniform audit requirements for non-Federal entities that administer
Federal awards. In addition, OMB Circular A-133 requires that Federal departments
and agencies rely on and use the audit work to the maximum extent practicable. To
meet the intent of the law and OMB Circular A-133, the auditee (non-Federal entity)
submits a complete reporting package on each single audit to the Single Audit
Clearinghouse. The reporting package includes the following:

            •   Data Collection Form, certified by the auditee that the audit was
                completed in accordance with the OMB Circular A-133;

            •   financial statements and related opinion;

            •   Schedule of Expenditures of Federal Awards and related opinion;

            •   report on internal control over compliance and on compliance with laws,
                regulations, and the provisions of contracts or grant agreements, and
                related opinion on compliance of major programs; and

            •   Schedule of Findings and Questioned Costs.

OMB also issues a Compliance Supplement (the Supplement). The Supplement is used
to assist auditors in determining the audit scope of the OMB Circular A-133
requirements for review of internal control. For each compliance requirement, the
Supplement describes the related audit objectives that the auditor shall consider in each
audit conducted under OMB Circular A-133 as well as suggested audit procedures.
The Supplement describes the objectives of internal control and characteristics that,
when present and operating effectively, may ensure compliance with program
requirements. The following 14 compliance requirements applicable to the various
Federal programs are identified in the Supplement:

                                            9
A.    Activities Allowed/Unallowed*            H.    Period of Availability of Federal Funds*
B.    Allowable Costs/Cost                     I.    Procurement and Suspension and
      Principles                                      Debarment*
C.    Cash Management                          J.    Program Income*
D.    Davis-Bacon Act                          K.    Real Property Acquisition and Relocation
E.    Eligibility                                     Assistance
F.    Equipment and Real Property              L.    Reporting*
      Management*                              M.    Sub recipient Monitoring*
G.    Matching, Level of Effort,               N.    Special Tests and Provisions*
      Earmarking*

*Identifies compliance requirements applicable to IITRI.




                                          10
Appendix B. Report Distribution

Gary N. Amstutz                        U.S. Department of Energy
Senior Vice President and Chief        Office of the Inspector General
  Financial Officer                    Attn: Single Audit Contact
IITRI                                  1000 Independence Avenue, SW
1750 Tysons Boulevard                  IG-33, Room 5A-193
Suite 1300                             Washington, DC 20585
McLean, VA 22102-4213
                                       U.S. Department of Transportation
Ronald C. Gibson                       Office of Inspector General
Assistant Vice President for           400 7th Street, SW
  Government Accounting                Room 9228
IITRI                                  Washington, DC 20590
10 West 35th Street
Chicago, IL 60616-3799                 Department of the Treasury
                                       Office of Inspector General
Stuart J. Miller, Partner              Director of Finance, Debt, and
KPMG, LLP                               IRS Oversight
303 East Wacker Drive                  740 15th Street, NW
Chicago, IL 60601                      Suite 600
                                       Washington, DC 20008
Director
Defense Contract Audit Agency          National Audit Managers - Non-Federal
8725 John J. Kingman Road               Audits
Suite 2353                             HHS OIG National External Audit
Fort Belvoir, VA 22060-6219             Resources
                                       Lucas Place
Harvey L. Smith, Branch Manager        323 West 8th Street, Room 514
Defense Contract Audit Agency          Kansas City, MO 64105
635 Butterfield Road
Suite 210
Oakbrook Terrace, IL 60181-4041




                                  11
Appendix B. Report Distribution                         (cont’d)

National Single Audit Coordinator            Chief, Office of Naval Research
Office of the Inspector General              800 North Quincy Street
Mid-Atlantic Audit Division                  Arlington, VA 22217-5660
U.S. Environmental Protection Agency
3A100                                        Department of the Air Force
1650 Arch Street, 3rd Floor                  Office of the Assistant Secretary
Philadelphia, PA 19103-2029                   (Financial Management & Controller)
                                             Attn: Director, Audit Liaison
Office of Inspector General                   (SAF/FMPF)
Attn: Single Audit Coordinator               1130 Air Force Pentagon, Room 4D212
Federal Emergency Management                 Washington, DC 20330-1130
 Agency
500 C Street, SW                             Department of the Navy
Suite 510                                    Assistant Secretary of the Navy
Washington, DC 20472                          (Financial Management &
                                               Comptroller)
NASA Office of Inspector General             Attn: Audit Liaison Branch (FMO-31)
NASA Headquarters, Code W                    1000 Navy Pentagon, Room 115
Washington, DC 20546-0001                    Washington, DC 20350-1000

Director, Defense Procurement                Department of the Army
Office of the Under Secretary of             Deputy Assistant Secretary of the Army
 Defense for Acquisition, Technology,         for Financial Management &
 and Logistics                                Comptroller
3060 Defense Pentagon, Room 3E1044           Financial and Accounting Oversight
Washington, DC 20301-3060                     Division
                                             0109 Army Pentagon, Room 3E588
                                             Washington, DC 20310-0109




                                        12
Defense Contract Audit Agency
Comments




                   13
Defense Contract Audit Agency (Central Region)
Comments




                      14
15
Illinois Institute of Technology Research Institute
Comments




                            16
17
Evaluation Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report, are listed below.

Wayne C. Berry
M. Thomas Heacock
Janet Stern
David H. Griffin
Krista S. Gordon
